February 12, 2010

JORDAN M. SMALL
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – Manasota Processing and Distribution Center Consolidation
         (Report Number EN-AR-10-003)

This report presents the results of our audit of the consolidation of the Manasota, FL
Processing and Distribution Center (P&DC) outgoing mail processing operations to the
Tampa, FL P&DC (Project Number 09XG030EN000). The report responds to a
congressional request. Our audit objectives were to assess operational impacts of the
consolidation and compliance with established policies. This audit addresses
operational risk. See Appendix A for additional information about this audit.




                             Manasota P&DC in Sarasota, FL

Conclusion

There was a valid business case for consolidating mail processing operations from the
Manasota P&DC to the Tampa P&DC. The consolidation should increase efficiency,
reduce processing costs, and improve service in support of the Postal Service’s network
streamlining efforts. In addition, we determined the area mail processing (AMP)
proposal was generally supported and in compliance with established policies. See
Appendix B for our detailed analysis of this topic.
Manasota Processing and Distribution                                                               EN-AR-10-003
 Center Consolidation



However, our analysis revealed that implementation of the Manasota P&DC
consolidation was delayed 6 months after approval of the AMP proposal, due to the
consolidation of other P&DC originating operations into the Tampa P&DC. Specifically,
in October 2008, management prepared the Lakeland and Manasota P&DC study
proposals and both were approved in March 2009. However, management elected to
implement the consolidations sequentially, due to the complexity of implementing
multiple consolidations into the same facility. Implementation of the Manasota P&DC
consolidation began in October 2009, after the Lakeland P&DC consolidation was
completed. Therefore, the Manasota P&DC AMP proposal did not capture volume and
workhour data from the Lakeland P&DC consolidation into the Tampa P&DC. The
volatility of mail volume can impact projections when implementation is not immediate,
increasing the risk of including outdated data in the proposal. Handbook PO-4081 does
not specify a timeframe between approval of the AMP and implementation of the
consolidation.

The new automated AMP worksheets enhanced the consolidation process, but did not
eliminate population and data entry errors. We found the following issues with the new
automated worksheets:

       Select Express Mail® volume data did not download from the Web Management
        Operating Data System (WebMODS). As a result, there were missing volumes
        data on the Manasota AMP worksheets. Management could minimize this
        condition by enabling the automatic feed into WebMODS. Handbook M-32,
        Management Operating Data System (MODS), states data collection and manual
        reporting will be maintained until an automatic feed using product tracking scans
        can be enabled into WebMODS.2 According to management, the automatic feed
        has not been implemented due to higher priority projects.

       Express Mail volumes and workhours that were downloaded by Postal Service
        Headquarters from WebMODS did not automatically transfer onto the AMP
        worksheets. This condition occurred because of an inconsistency in the
        methodology for incorporating Express Mail operations onto the AMP worksheets
        occurring after February 2008. The Manasota P&DC AMP proposal was the first
        to use the new AMP worksheets. The methodology has since been updated and
        a review of subsequent AMP proposals confirmed this issue has been corrected.

The use of inaccurate MODS data on the AMP worksheets can affect the business case
for the consolidation. In this case, missing and inaccurate data for the Manasota P&DC
AMP did not have a material impact on the proposed savings. See Appendix B for
detailed analysis of these topics.

1
  Handbook PO-408, Area Mail Processing Guidelines, March 2008, states implementation should begin at the
beginning of a quarter, but it does not specify which quarter after AMP approval.
2
  WebMODS is a web-enabled application that provides a systematic approach to gathering, storing, and reporting
data pertaining to workload, workhours, and mail processing machine use.




                                                        2
Manasota Processing and Distribution                                       EN-AR-10-003
 Center Consolidation



We recommend the vice president, Network Operations:

1. Ensure the implementation activities of processing and distribution center
   consolidations begin immediately after area mail processing proposal approval and
   require headquarters’ approval when implementation is delayed more than
   3 months.

2. Enable the automatic feed into the Web Management Operating Data System for
   Express Mail scanning operations.

Management’s Comments

Management agrees with the findings and recommendations. Specifically, for
recommendation 1, management agreed to begin implementation activities for AMP
proposals immediately after the proposal is approved and to require headquarters’
approval if implementation timeline takes longer than 3 months. For recommendation 2,
management agreed to complete a cost benefit analysis by the end of fiscal year (FY)
2010 to determine whether they should automate the current manual system and to
seek funding for implementation if results are favorable. See Appendix C for
management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael Magalski, director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations




                                          3
Manasota Processing and Distribution       EN-AR-10-003
 Center Consolidation



Attachments


cc: Patrick R. Donahoe
    Steven J. Forte
    Linda J. Welch
    Frank Neri
    Tiffany Hagaman
    David M. Patterson
    Sally K. Haring




                                       4
Manasota Processing and Distribution                                                            EN-AR-10-003
 Center Consolidation


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service is facing one of the most difficult challenges in its history.
There has been a continual decline in First-Class Mail® (FCM) volume over the past
decade. Since peaking at 213 billion pieces in FY 2006, mail volume dropped by more
than 9 billion pieces in FY 2008 and more than 25 billion in FY 2009, resulting in a net
loss of $3.8 billion.3 Another decline of 10-15 billion pieces is anticipated for FY 2010.

While the Postal Service reduced expenses by almost $6.1 billion in FY 2009, this
reduction has not been sufficient to fully offset the decline in mail volume and rising
workers’ compensation and retirement costs. In recent testimony before Congress,4 the
U.S. Government Accountability Office (GAO) recommended that urgent action was
needed to streamline the mail processing and retail networks, as the Postal Service no
longer has sufficient revenue to cover the cost of maintaining its large network of
processing and retail facilities. Furthermore, the GAO stated it was necessary for the
Postal Service to consider whether it was cost effective to retain underused facilities
and to take action to right-size its network. In 2003, the President’s Commission on the
Postal Service found the Postal Service had more facilities than it needed and noted the
agency faced political resistance to closing or consolidating its facilities, along with
restrictive statutory requirements.

In 2008, the Postal Service revised Handbook PO-408 to improve the consistency of
data and the implementation process. AMP consolidations are designed to make more
efficient use of Postal Service assets such as equipment, facilities, staffing, and
transportation; improve operational efficiency and/or service; and eliminate excess mail
processing capacity at Postal Service facilities. An AMP may involve consolidating
originating operations (canceling and sorting locally generated mail), destinating
operations (sorting and preparing mail received from more distant areas for local
delivery), or both.

This report also responds to a request from a Congressional Representative of Florida’s
13th Congressional District (see Map 1) to examine the consolidation of outgoing mail
processing operations from the Mansota P&DC into the Tampa P&DC. Congressional
concerns included:
     Possible loss of jobs
     Continued effectiveness of mail operations
     Continued quality of service
     Public transparency


3
 Excludes $4 billion in required payments for retiree health benefits passed into law for FY 2009.
4
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.




                                                      5
Manasota Processing and Distribution                                                                     EN-AR-10-003
 Center Consolidation


                                  Map 1: Florida’s 13th Congressional District




The Postal Service conducted an AMP study in November 2008 to determine if it could
increase efficiency by consolidating Manasota P&DC outgoing5 mail processing
operations into the Tampa P&DC. The Tampa P&DC was already processing
Manasota P&DC outgoing mail on Saturdays. The Manasota P&DC will continue to
process their incoming (destinating) mail. The consolidation is scheduled to shift
approximately 382,519 pieces of average daily volume. The Manasota P&DC is
approximately 51 miles from the Tampa P&DC. Both facilities are part of the Suncoast
District in the Southeast Area (see Map 2).

The Suncoast District already consolidated originating mail processing from the
St. Petersburg P&DC in June 2008 and from the Lakeland P&DC in October 2009 into
the Tampa P&DC.




5
    Mail originating at the Manasota P&DC from collections, window units, or business mail acceptance.




                                                           6
Manasota Processing and Distribution                                                                                               EN-AR-10-003
 Center Consolidation


               Map 2: Districts Within the Postal Service Southeast Area


                                     Tennessee
                                     307, 370-385                                                                 Southeast Area
                                                                                                                        FY 2010
                                                           Atlanta
                                                         300-303,
                                                         305, 306,
                                                         311, 399
                                       Alabama
                     Mississippi
                                      350-352, 354-368
                      369, 386-397
                                                               South Georgia
                                                              298, 299, 304, 308-310,
                                                                   312-319, 398




                                                            North Florida
                                                                         320-326, 344




                                                                                   Suncoast
                                                                                        327-329,
                                                                                        335-339,
                                                                                        341, 342,
                                                                                        346, 347
                                                                                            South Florida
                                                                                                       330-334,
                                                                                                       340, 349




OBJECTIVES, SCOPE, AND METHODOLOGY

Our audit objectives were to assess operational impacts of the consolidation and
compliance with established policies. In response to the congressional request, we
evaluated the efficiency gains, savings projections, service implications, and public
transparency of the Manasota P&DC into the Tampa P&DC consolidation proposal.

We reviewed current and historical data for both the Manasota and Tampa P&DCs. We
examined data for FY 2008 (October 1, 2007 through September 30, 2008) to confirm
information on the AMP worksheets. Additionally, we conducted observations at both
sites during the week of August 3, 2009, interviewed Postal Service officials and
employees, and reviewed applicable guidelines, including Handbook PO-408.

We used computer-processed data from the following systems to analyze workhours,
mail volumes, staffing, service, transportation, and maintenance:

      Activity-Based Costing
      Collection Point Management System
      Enterprise Data Warehouse (EDW)
      Facility Access and Shipping Tracking
      Service Standard Directory
      Web Complement Information System
      Web Enterprise Information System




                                                                               7
Manasota Processing and Distribution                                                         EN-AR-10-003
 Center Consolidation


We did not test the reliability of computer-generated data from these systems. Another
OIG audit6 identified root causes of anomalous MODS data and noted changes the
Postal Service implemented in 2008 to reduce these occurrences.

We conducted this performance audit from July 2009 through February 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with Southeast Area management on December 8, 2009
and with Postal Service Headquarters officials on December 17, 2009 and included their
comments where appropriate.




6
 Follow-Up Audit of the Management Operating Data System, Report Number CRR-AR-09-004, dated April 14,
2009.




                                                     8
      Manasota Processing and Distribution                                                                 EN-AR-10-003
       Center Consolidation


                                         PRIOR AUDIT COVERAGE

                                               Final
                            Report            Report
    Report Title            Number             Date                                Report Results
                                                              The AMP process was fundamentally sound. However,
                                                              management could improve the process by updating AMP
Area Mail Processing                                          guidance, processing and approving AMPs timely,
                          NO-AR-06-001       12/21/2005
Guidelines                                                    conducting Post-Implementation Reviews (PIR) on all AMPs,
                                                              and addressing stakeholder resistance. Management
                                                              agreed with the findings and recommendations.
                                                              The Postal Service is taking an incremental approach to
                                                              streamlining the mail processing networks using the
Status Report on the
                                                              Evolutionary Network Development initiative as a framework.
Evolutionary Network      NO-MA-06-001       03/20/2006
                                                              This represents a shift from its initial focus of optimizing the
Development Initiative
                                                              performance of the entire mail processing and transportation
                                                              infrastructure. The report did not include recommendations.
                                                              The Postal Service could improve the way it documents
                                                              service impacts in AMP proposals and PIRs. Management
                                                              could improve the process if it revised AMP policy to include
Service Implications of
                                                              guidance for reporting service standards information;
Area Mail Processing      EN-AR-07-002       12/05/2006
                                                              measuring service performance; and documenting potential
Consolidations
                                                              changes affecting customer service, such as collection box
                                                              pick-up times and access to the business mail entry unit.
                                                              Management agreed with our recommendations.
                                                              The Postal Service’s revisions to AMP guidance have
                                                              resulted in significant improvements. Management
                                                              incorporated 32 prior OIG audit recommendations on AMP
Management Advisory -
                                                              policy into the revisions. Additional enhancements could
Automated Area Mail       EN-MA-08-001       10/19/2007
                                                              further improve AMP guidance with regard to such things as
Processing Worksheets
                                                              workhours, transportation, communication, service,
                                                              performance indicators, and supervisory ratios.
                                                              Management agreed with our recommendations.
                                                              We concluded the Postal Service has improved
                                                              communication and generally addressed prior audit
                                                              recommendations. We recommended several methods of
                                                              further increasing stakeholder notification, including
Area Mail Processing
                          EN-AR-09-001       02/04/2009       exploring electronic methods. Management agreed with our
Communication
                                                              recommendation to add employee input notifications, but
                                                              disagreed with our recommendation to explore additional
                                                              communication channels.




                                                          9
Manasota Processing and Distribution                                                                      EN-AR-10-003
 Center Consolidation


                                 APPENDIX B: DETAILED ANALYSIS

Operational Impacts

Staff reductions seem reasonable based on proposed AMP projections.7 The transfer
of outgoing mail processing operations from the Manasota P&DC to the Tampa P&DC
will impact 59 positions at the Manasota P&DC, with an estimated net reduction of 34
positions. Management plans to accomplish this by:

        Moving 25 employees to the Tampa P&DC;
        Reducing complement through attrition and retirement; and
        Transferring employees to other local facilities.

Management is following procedures outlined in the national agreements between the
Postal Service and the impacted unions, including notification of unions and employees.

In a national effort to consolidate excess capacity, the Tampa and Manasota P&DCs
are in the process of reducing complement due to mail volume reductions. As of
November 2009, the Manasota P&DC has reduced complement at the Manasota P&DC
by 34 positions. These reductions are in addition to the complement reductions
associated with the consolidation. Table 1 shows changes that have occurred based on
this initiative, along with AMP projections.

                         Table 1: Manasota P&DC Complement Changes
                           Positions On-Rolls                      AMP Consolidation Positions
                         AMP
                                  Nov-09     Change     Proposed     Impacted    Move to Tampa       Net Reduction
                        Nov-08

           Craft          366       337        (29)        315         (51)             24               (27) 
        Management         32        27        (5)          24          (8)              1                (7) 
          Total           398       364        (34)        339         (59)             25               (34) 

Efficiency Gains

Processing productivity8 increased for the Manasota and Tampa P&DCs from FY 2008
to FY 2009. Prior to any consolidations, the Tampa P&DC had a 56.9 percent
Breakthrough Productivity Initiative (BPI)9 performance achievement in FY 2007, which
has steadily improved since then to 67.8 percent in November 2009.10 BPI performance




7
  AMP proposal approved by headquarters on March 24, 2009.
8
  Total pieces handled volume divided by workhours.
9
  Initiative to help focus and structure process improvement efforts to drive productivity growth.
10
   FY 2010 BPI scorecard generated November 23, 2009.




                                                           10
Manasota Processing and Distribution                                                                               EN-AR-10-003
 Center Consolidation


achievement11 for the Manasota P&DC has declined from 75.4 percent in FY 2008 to
73.1 percent in November 2009.

However, the cost for standby operations12 also increased from $53,945 in FY 2008 to
$100,074 in FY 2009, due to declines in mail volume. Challenges remain to reduce
workhours to match volume declines due to the lack of workforce flexibilities.

Customer Satisfaction Measurement13 scores for the Tampa and Manasota P&DCs
were generally higher than the national level during FYs 2008 and 2009. See Table 2
for trends.

                                                      Table 2: Residential Overall Performance Trend
                                                               Tampa and Manasota P&DCs
                                                                Fiscal Years 2008 and 2009

                                                      98
                Excellent/Very Good/Good Responses 




                                                      97
                                                      96
                                                      95
                                                      94
                                 (%)




                                                                                                                National
                                                      93                                                        Tampa
                                                      92                                                        Manasota
                                                      91
                                                      90
                                                           Q1    Q2    Q3    Q4        Q1   Q2   Q3   Q4

                                                                  FY 2008                   FY 2009

                                                      Source: Customer Knowledge Management, Consumer Affairs

The Tampa P&DC is 51 miles from the Manasota P&DC and volumes will be moved on
existing and modified transportation, with little or no additional cost to the Postal
Service. Transportation supporting the Manasota P&DC is exclusively highway contract
route.




11
   BPI performance achievement is the earned hours (hours they should have used based on the target) divided by
the actual workhours. If the actual hours used is higher than the earned hours, then the BPI percent will be lower
than 100 percent.
12
   Workhours of mail processing employees who are kept on the clock, but are idle as a result of lack of work or low
volume periods.
13
   Gallup survey scores that are based on customer experience.




                                                                                  11
Manasota Processing and Distribution                                                                      EN-AR-10-003
 Center Consolidation


Savings Projections

Projected savings are realistic and attainable based on current available data. Through
increased productivity gained by moving the outgoing operations, transportation
changes, and the reduction of 34 positions, the Suncoast District projects to save about
$3.2 million annually. The majority of the savings will come from $3 million in reduced
labor costs. The Postal Service will not know actual savings until 1 year after
implementation and will assess the savings as part of the PIR process.

Service Implications

Net service standards14 will improve for all categories previously processed at the
Manasota P&DC, except Standard Mail, which remains within the 3-10 day standard
range. All other downgrades remain within the standard for that category. Table 3 lists
the service standard impacts that will result from the consolidation.



                                   Table 3: Service Standard Impacts
                                       Upgrades Downgrades Net Change
                      First-Class Mail    11        0          11
                           Priority       1         0           1
                         Periodicals      22       21           1
                          Standard         3        5           -2
                         Packages         3         1           2
                            Total         40       27          13


External First-Class Measurement (EXFC)15 scores for the Tampa and Manasota
P&DCs generally remained above the national average for FY 2009. Postal Service
officials expect this performance to continue after the consolidation. See Table 4 for
comparison.




14
   A service standard is an expectation of the Postal Service to deliver a mailpiece to its intended destination within a
prescribed number of days following proper deposit by a customer.
15
   EXFC is a test an independent contractor performs to measure the time it takes mail to go from mailbox to delivery
customer.




                                                           12
Manasota Processing and Distribution                                                                             EN-AR-10-003
 Center Consolidation


                                     Table 4: Comparison of EXFC Scores
                                     Fiscal Year 2009 – Quarterly Averages

                           Overnight                                2‐Day                                3‐Day
                 99                                  99                                        99
                 97                                  97                                        97
                 95                                  95                                        95
                 93                                  93                                        93
                 91                                  91                                        91
                 89                                  89                                        89
                 87                                  87                                        87
                 85                                  85                                        85
                      Q1        Q2    Q3    Q4                Q1    Q2      Q3       Q4             Q1   Q2      Q3   Q4


                                                                                                            Source: EDW
                                                                                 Legend:            Tampa P&DC
                                                                                                    Manasota P&DC
                                                                                                    National Average

Due to the consolidation, one trip of Manasota originating volumes will arrive after
20:00, which will affect the 24-hour clock indicator16 “Collections by 20:00”. However,
managers are cognizant of this issue and plan to make transportation accommodations
to ensure timely arrival at the delivery unit.

There will be no changes to local mail collection box times or business mail entry unit
operations as a result of the consolidation. In response to public input during the
feasibility study process, management constructed a mail drop-slot at the Manasota
P&DC for customers who prefer their mail to have a local Manasota postmark.

Public Transparency

Notice of initiation of the feasibility study, completion of the study, and approval of the
consolidation was in accordance with AMP and AMP communication guidelines.

Specifically, the public input meeting was held within 45 days of completing the
feasibility study, with 15 days for feedback after the meeting. In addition:

        Individual notification letters focused on the two counties that border the P&DC.
        Additional local and county officials received notice for the public meeting via the
         media.
        No other meetings/hearings were required or requested.



16
   The 24-hour clock indicators show how key operations affect each other and may influence service. Each indicator
is a key link in providing service to downstream facilities and customers. Scores are compared nationally and used
locally by managers to address service performance issues.




                                                               13
Manasota Processing and Distribution                                        EN-AR-10-003
 Center Consolidation



AMP worksheets can contain commercially sensitive information, the public disclosure
of which could cause competitive harm to the Postal Service. As a result, worksheets
have to be reviewed and sensitive data redacted according to Postal Service guidance
before public disclosure.

Although the Postal Service takes into account community impact/opposition, it is
mandated to operate like a business and has the fiduciary responsibility to make good
business decisions. Due to the dramatic decline in mail volume, the Postal Service
must reduce its mail processing operations to eliminate excess capacity in the network.

Delayed Implementation

The Manasota P&DC consolidation was delayed 6 months after it was approved. Both
the Lakeland and Manasota P&DC consolidation proposals were submitted and
approved concurrently; however, they were implemented sequentially into the Tampa
P&DC. Postal management chose to delay the Manasota P&DC consolidation due to
the complexity of implementing both consolidations at the same time into the same
facility. Below is the sequence of key events:

       Headquarters notified of both AMP studies:                 October 30, 2008
       District requests to defer Manasota P&DC AMP:              December 30, 2008
       Headquarters approves both AMPs:                           March 24, 2009
       Lakeland P&DC begins implementation:                       August 10, 2009
       Lakeland P&DC implementation complete:                     October 1, 2009
       Manasota P&DC begins implementation:                       October 1, 2009
       Manasota P&DC implementation completion scheduled:         April 1, 2010

AMP Worksheets

We found the following population and data entry errors during the review of the AMP
worksheets:

   Select Express Mail volume data did not download from the Web Management
    Operating Data System (WebMODS). As a result, there were missing volumes data
    on Manasota AMP workhsheets. Manasota’s volume was understated by 152,909
    pieces. This could have been minimized if the automatic feed had been enabled in
    WebMODS.

   Express Mail volumes and workhours that were downloaded by Postal Service
    Headquarters and used to populate the worksheets did not transfer over to the
    appropriate worksheets. Specifically, there were 2,335 workhours for Manasota that
    did not transfer and therefore, excluded from the total workhours. Additionally,
    Tampa’s data was understated by 1,019,262 pieces of mail volume and 21,697
    workhours on the gaining facility worksheets that also did not transfer. Postal



                                           14
Manasota Processing and Distribution                                     EN-AR-10-003
 Center Consolidation


   Service Headquarters has updated the AMP methodology to correctly match the
   current MODS operation list.

Missing and inaccurate volumes and workhours data for the Manasota AMP, while
systemic, did not have a material impact on the proposed savings. Management stated
adjustments would be made during the PIR to account for the errors.




                                        15
Manasota Processing and Distribution                       EN-AR-10-003
 Center Consolidation


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                       16
Manasota Processing and Distribution        EN-AR-10-003
 Center Consolidation




                                       17
